Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




 PAYMENTS FOR REFERRALS OF

PARENTERAL NUTRITON PATIENTS



        A MANAGEMENT ADVISORY REPORT




                 JULY 1993
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public- The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Health Care
Branch under the direction of Penny R. Thompson, Chief-

Cathaleen A Ahern, Project Leader

Lewis Morris, Deputy Chief Counsel, Office of General Counsel, Inspector General Division


For additional copies of this report, please contact the Health Care Branch at (410)966-3138.
                                           I
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 PAYMENTS FOR REFERRALS OF

PARENTERAL NUTRITION PATIENTS



        A MANAGEMENT ADVISORY REPORT




          JULY   1993   OEI-12-92-00461

                          INTRODUCTION

PURPOSE       To alert the Health Care Financing Administration (HCFA) to payments

being made to End-Stage Renal Disease (ESRD) facilities for referrals of parenteral

nutrition patients.


BACKGROUND              The Office of Evaluation and Inspections recently released a report

on inappropriate      payments for total parenteral nutrition (TPN), a “high-tech” form of

artificial nutrition used by a small number of patients who lack functioning intestinal

tracts. (See OEI-12-92-00460.)       In the course of that inspection, we discovered that

parenteral nutrition is used in ESRD facilities, in a way that does not comply with

Medicare’s coverage policies for this very expensive therapy.        (When parenteral

nutrition is infused at the same time as a patient is being dialyzed, the therapy is

called “intra-dialytic parenteral nutrition” (IDPN).)


We recommended     that HCFA instruct the specialty carriers who process claims for

TPN to adhere to a strict interpretation of the coverage guidelines, and that HCFA

review research concerning the clinical appropriateness  of IDPN. The HCFA agreed

with these recommendations.


While we reported   on the use of IDPN in that report, we limited our discussion to

coverage and clinical issues, rather than payment. In this management   advisory

report, however, we wish to alert HCFA to a serious kickback vulnerability identified

in our research.


METHODS         We examined a one-percent random sample of patients on whose behalf

Medicare paid claims for parenteral nutrients or supplies in 1991. When we found

that half the sample consisted of ESRD patients, we conducted a telephone survey of

93 randomly-selected     ESRD facilities, inquiring about their use of IDPN, patient

selection criteria, their choice of a supplier, and other issues. The respondent was

usually a head nurse or other clinician, rather than a business officer. This survey

forms the basis of what we are reporting here. The extent of use and clinical criteria

for use of IDPN were discussed in the TPN report referred to above.


We conducted   our review in accordance with the Quality Standards for Inspections

issued by the President’s Council on Integrity and Efficiency.

                                        FINDINGS


Almost h@ the ESRD facilihkswe SLUVqVd
                                     wereusingIDPN

The table below displays the use of IDPN in the facilities surveyed. Forty-five of the
93 facilities use IDPN. The 55 for-profit facilities (33 of which use IDPN) had 2.9
percent of their patients on IDPN; the 38 not-for-profit facilities (12 using IDPN) had
1.5 percent on IDPN. 1 The overall rate was 2.4 percent.

 Facility            Stations      Census      No use          Past use        Current use     Patients
 For-profit;               869       4126                 12               9            33               109
 55
 Not for-                  534        2592                17            10                12             51
 profit; 38
 Total         93        1,403        6,718               29            19                45             160

As discussed in our earlier report, patients receiving IDPN account for more than half
the number of patients with TPN claims, and one-third of the payments.

Some IDPN suppkimarepayingESRD facilitiesto admhzistertheirparenteralnutrients

In most cases, facilities arranged for IDPN to be supplied by an outside source. The

outside supplier billed Medicare for the nutrients and supplies. Four hospital-based or

-affiliated facilities procured the nutrients from the hospital’s pharmacy. One large

chain of dialysis facilities also is a supplier of IDPN. It supplied its own facilities, and

was identified as the supplier of 21 of the facilities currently using IDPN (including 7 it

owns). Two other facilities also reported that their parent company supplied their

nutrients.


We asked the 45 facilities currently using IDPN whether their supplier paid the facility

directly or indirectly for administering IDPN (usually this was characterized as

“payment for the nurse’s time” or “an administration fee.”) The table on the following

page displays the answers we received. Of the seven respondents who answered “yes,”

only one was aware of the amount ($60 per infusion, or $180 per week per patient.)

Of the facilities not currently using IDPN, one said it had been paid $25 an infusion

(or $75 per week per patient); a second facility was looking for a supplier and

expected to be paid a per-bag or per-infusion fee.





         4

         ‘ The designation of two facilities as for-profit is a correction of the table in our earlier
report, in which they were incorrectly recorded as being not-for-profit.


                                                      2
 Response to query about fee, rebate or payment                            # Responding
                                                                       I
 Don’t know about payments                                                            21
                                                                       I
 Yes, facility receives payment                                                           7
 Believe facility is paid                                                                 2
 Payment in kind (refrigerator)                                        I                  1II
 No, facility receives no payment                                      I                  1 II
 Hospital supplies nutrients                                                              4
 Same parent company                                                                      9

                                                               Total                  45

We obtained a copy of the “IDPN Service Agreement” used by the major supplier
referred to above. The supplier’s cover letter to the agreement says the service
agreement is used to “allow us to reimburse your unit (on a fee for service basis) for
the staff time required to administer IDPN and monitor the patient.” The agreement
itself shows $30.00 as the fee per parenteral therapy treatment. The fee is noted to be
negotiable should Medicare increase or decrease its reimbursement rates for the
therapy in question by more than 15 percent.

l%esepaywums appearto be illegalas weUas unreasonablyhigh

We believe that these fees may represent inducements intended to influence the
selection of an IDPN supplier and to encourage the placement of additional patients
on IDPN. As such, the payment would be in violation of the Medicare and Medicaid
Anti-kickback statute, which prohibits the offer or receipt of remuneration to induce
the referral of Medicare-reimbursed items or services. Our concern is heightened by
the amount of these “administration” fees -- $75 to $180 per patient per week for the 5
to 7 months we found the average IDPN patient to be receiving nutrients.

The fees raise questions about the reasonableness of Medicare’s reimbursement for
IDPN, if over $9,000 a year can be paid for “administrative costs” when Medicare’s
reimbursement for IDPN is $30,000 to $40,000 per patient year. Dialysis facilities are
paid a composite rate per treatment for dialysis, including supplies, laboratory tests,
and certain drugs. The prospectively-set base rate ranges from $126 in a free-standing
facility to $130 dollars in a hospital facility and is adjusted for area wage levels. Thus
a $25-per-infusion administration fee would represent an additional 20 percent of
HCFAS base payment. The IDPN nutrients and supplies themselves would account
for another $230 paid on average per infusion. This payment is made to the IDPN
supplier, not the facility. Our earlier report discusses why IDPN should cost less
(rather than more, as it currently does) to administer than TPN, due to bulk
purchasing, streamlined administration, and other economies.



                                             3

                            CONCLUSION


We are concerned that the illegality of offering or receiving payments for referrals is
not well understood by some ESRD facilities. We intend to alert the provider and
supplier communities to the prohibition on payments for referrals through this MAR
and other communication.   The HCFA may wish to issue clari&ing instructions as well.




                                          4

